Audit Report




OIG-09-004
FINANCIAL MANAGEMENT:
Report on the Bureau of the Public Debt Trust Fund Management
Branch Schedules for Selected Trust Funds as of and for the
Year Ended September 30, 2008
November 7, 2008




Office of
Inspector General
Department of the Treasury
                                         DEPARTMENT OF THE TREASURY
                                               W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GE NER AL
                                                 November 7, 2008


             MEMORANDUM FOR VAN ZECK, COMMISSIONER
                            BUREAU OF THE PUBLIC DEBT

             FROM:                    Michael Fitzgerald /s/
                                      Director, Financial Audits

             SUBJECT:                 Report on the Bureau of the Public Debt
                                      Trust Fund Management Branch Schedules for
                                      Selected Trust Funds as of and for the
                                      Year Ended September 30, 2008


             I am pleased to transmit the attached Report on the Bureau of the Public Debt Trust
             Fund Management Branch (TFMB) Schedule of Assets and Liabilities and the related
             Schedule of Activity of Selected Trust Funds as of and for the year ended
             September 30, 2008 (the Schedules). Under a contract monitored by the Office of
             Inspector General, KPMG LLP, an independent certified public accounting firm,
             performed an examination of TFMB’s assertions pertaining to the Schedules as of
             and for the year ended September 30, 2008. These Schedules relate solely to the
             functions performed by TFMB as custodian of the following Trust Funds’ monies and
             investments:

                      •   Federal Supplementary Medical Insurance Trust Fund,
                      •   Federal Hospital Insurance Trust Fund,
                      •   Highway Trust Fund,
                      •   Airport and Airway Trust Fund,
                      •   Hazardous Substance Superfund Trust Fund,
                      •   Leaking Underground Storage Tank Trust Fund,
                      •   Oil Spill Liability Trust Fund,
                      •   Harbor Maintenance Trust Fund,
                      •   Inland Waterways Trust Fund, and
                      •   South Dakota Terrestrial Wildlife Habitat Restoration
                          Trust Fund

             The contract required that the examination be performed in accordance with
             generally accepted government auditing standards and the attestation standards
             established by the American Institute of Certified Public Accountants.
Page 2


In its examination of TFMB’s assertions pertaining to the Schedules, KPMG LLP,
found:

      •   TFMB’s assertions (which are included in the Independent Auditors’ Report on
          Management’s Assertions) pertaining to the Schedules are fairly stated, in all
          material respects, based on the measurement and disclosure criteria set forth
          in note 1 to the Schedules, and
      •   a significant deficiency in internal control, described below, that is required to
          be reported in accordance with Government Auditing Standards.

In its report, KPMG LLP noted a significant deficiency relating to the recording of tax
adjustments in the Airport and Airway Trust Fund, Highway Trust Fund, Inland
Waterways Trust Fund, Leaking Underground Storage Tank Trust Fund, and the Oil
Spill Liability Trust Fund. Although TFMB purchased or redeemed investments when
TFMB received tax adjustments, TFMB did not record receivables/payables or tax
receipts in the period that the tax adjustments related to, in accordance with
Statement of Federal Financial Accounting Standards No. 7, Accounting for Revenue
and Other Financing Sources and Concepts for Reconciling Budgetary and Financial
Accounting, and the related Interpretation of Federal Financial Accounting Standards
No. 5, Recognition by Recipient Entities of Receivable Nonexchange Revenue: An
Interpretation of SFFAS No. 7. However, KPMG also noted that it did not believe the
significant deficiency is a material weakness.

In connection with the contract, we reviewed KPMG LLP’s report and related
documentation and inquired of its representatives. Our review, as differentiated from
an examination of assertions in accordance with generally accepted government
auditing standards, was not intended to enable us to express, and we do not
express, an opinion on TFMB’s assertions. KPMG LLP is responsible for the attached
auditors’ report dated November 3, 2008 and the conclusions expressed in the
report. However, our review disclosed no instances where KPMG LLP did not
comply, in all material respects, with generally accepted government auditing
standards.

Should you have any questions, please contact me at (202) 927-5789, or a member
of your staff may contact Mark S. Levitt, Manager, Financial Audits at
(202) 927-5076.

Attachment

cc:       Kenneth E. Carfine
          Fiscal Assistant Secretary
            U. S. DEPARTMENT OF THE TREASURY
BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH

            Schedules and Notes for Selected Trust Funds

           As of and for the Year Ended September 30, 2008
                         U.S. DEPARTMENT OF THE TREASURY
             BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH


                                              Table of Contents



                                                                      Page

I     Independent Auditors’ Report on Management’s Assertions           1

II    Schedule of Assets and Liabilities of Selected Trust Funds        6

III   Schedule of Activity of Selected Trust Funds                      9

IV Notes to the Schedules of Selected Trust Funds                      12
I.   INDEPENDENT AUDITORS’ REPORT ON
        MANAGEMENT’S ASSERTIONS
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                        Independent Auditors’ Report on Management’s Assertions


Inspector General, U.S. Department of the Treasury, and
Commissioner, Bureau of the Public Debt:

We have examined the following assertions of the Trust Fund Management Branch (TFMB) of the Bureau of the
Public Debt (BPD) of the U.S. Department of the Treasury (Treasury) with respect to the applicable accounts of
each trust fund included on the accompanying Schedule of Assets and Liabilities of Selected Trust Funds as of
September 30, 2008 and the related Schedule of Activity of Selected Trust Funds for the year then ended
(Schedules):

•   Fund balance with Treasury is reported based on the balance reported by Treasury’s Financial Management
    Service (FMS) in the Government-wide Accounting and Reporting Modernization Project (GWA) Account
    Statement and reconciling transactions identified and recorded by TFMB.

•   Interest receivables are calculated and reported by TFMB based on the investment terms received and
    recorded by TFMB from BPD’s Federal Investments Branch (FIB) in the investment confirmations and
    monthly statements of account.

•   Other receivables are reported based on amounts received and recorded by TFMB from the program agencies
    responsible for the respective trust fund activity.

•   Investments, net are calculated and reported at net cost based on the cost and premium/discount amounts
    reported to TFMB in the investment confirmations and monthly statements of account received from FIB.

•   The market value of investments is calculated and reported by TFMB using the recorded investment cost and
    the market rates published in the September 30, 2008 Treasury Quote file and unrealized gains and losses are
    calculated and reported by TFMB as the difference between the market value and the investments, net.

•   Program agency equity is calculated and reported by TFMB based on the assets of the trust fund.

•   Available program agency equity is reported based on amounts received and recorded by TFMB from the
    program agencies responsible for the respective trust fund activity.

•   Other program agency equity is calculated and reported by TFMB as the difference between the assets of the
    trust fund and the available program agency equity received and recorded by TFMB from the program
    agencies responsible for the respective trust fund activity.




                                                                       2
                                      KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                      a member of KPMG International, a Swiss cooperative.
•   Interest revenue is reported based on the amounts received and recorded by TFMB from FIB in the monthly
    statements of account and accrued interest and amortization calculated by TFMB. Amortization of any
    premiums and discounts on investments is calculated and reported by TFMB based on the investment terms
    reported to TFMB by FIB using the straight-line method for investments with a term equal to or less than one
    year and using the level yield method which approximates the interest method for investments with a term of
    greater than one year.

•   Penalties, fines, administrative fees, transfers in from program agencies, premiums, cost recoveries, and other
    income are reported based on the amounts received and recorded by TFMB from FMS and the program
    agencies responsible for the respective trust fund activity.

•   Tax revenues, tax adjustments, and tax refunds are reported based on the amounts received and recorded by
    TFMB from the Office of Tax Analysis, Internal Revenue Service, FMS, and/or U.S. Customs and Border
    Protection.

•   Transfers to program agencies are calculated and reported based on the disbursement request amounts
    received and recorded by TFMB from the program agencies responsible for the respective trust fund activity
    and the disbursement amounts returned and recorded by TFMB from the program agencies responsible for
    the respective trust fund activity.

•   Reimbursements to Treasury bureaus and the General Fund are reported based on the disbursement request
    amounts received and recorded by TFMB from various Treasury bureaus, including BPD and FMS.

TFMB’s management is responsible for the assertions. Our responsibility is to express an opinion on these
assertions based on our examination. Our examination was conducted in accordance with attestation standards
established by the American Institute of Certified Public Accountants (AICPA) and the standards applicable to
attestation engagements contained in Government Auditing Standards issued by the Comptroller General of the
United States and, accordingly, included examining on a test basis, evidence supporting the assertions stated
above and performing such other procedures as we considered necessary in the circumstances. We believe that
our examination provides a reasonable basis for our opinion.

In our opinion, TFMB’s assertions referred to above relating to the applicable accounts of each trust fund
reported on the accompanying Schedule of Assets and Liabilities of Selected Trust Funds as of September 30,
2008, and the related Schedule of Activity of Selected Trust Funds for the year then ended, are fairly stated, in all
material respects based on the measurement and disclosure criteria set forth in note 1 to the Schedules of Selected
Trust Funds.

In accordance with Government Auditing Standards, we are required to report significant deficiencies in internal
control, identifying those considered to be material weaknesses, violations of provisions of contracts or grant
agreements, and abuse that could have a material effect on TFMB’s assertions referred to above relating to the
applicable accounts of each trust fund reported on the Schedules, and any fraud and illegal acts that are more than
inconsequential that come to our attention during our examination. We are also required to obtain the views of
management on those matters. We performed our examination to express an opinion on whether TFMB’s
assertions referred to above relating to the applicable accounts of each trust fund reported on the Schedules is
presented in accordance with the criteria described above and not for the purpose of expressing an opinion on the
internal control over the Schedules or on compliance and other matters; accordingly, we express no such
opinions. Our examination disclosed a significant deficiency that is required to be reported under Government
Auditing Standards and this finding, along with the views of management, are described below. However, we do
not believe the significant deficiency is a material weakness.



                                                         3
   Condition and Criteria
   The Airport and Airway Trust Fund, Highway Trust Fund, Inland Waterways Trust Fund, Leaking
   Underground Storage Tank Trust Fund, and the Oil Spill Liability Trust Fund receive tax adjustments each
   quarter. Although TFMB purchased or redeemed investments when TFMB received tax adjustments, TFMB
   did not record receivables/payables or tax receipts in the period that the tax adjustments related to, in
   accordance with Statement of Federal Financial Accounting Standards No. 7, Accounting for Revenue and
   Other Financing Sources and Concepts for Reconciling Budgetary and Financial Accounting, and the related
   Interpretation of Federal Financial Accounting Standards No. 5, Recognition by Recipient Entities of
   Receivable Nonexchange Revenue: An Interpretation of SFFAS No. 7.

   Cause
   TFMB did not have procedures requiring management to document its review and approval of tax
   adjustments that staff determined TFMB did not need to record because the tax adjustments were immaterial.

   Effect
   Although the trust funds earned investment income based on when TFMB received the tax adjustments, the
   Schedule of Activity of Selected Trust Funds for the fiscal year ended September 30, 2008, included the
   following tax adjustments related to the fiscal year ended September 30, 2007:
   a. Airport and Airway Trust Fund for $179,673,000.
   b. Highway Trust Fund for $(138,729,000).
   c. Inland Waterways Trust Fund for $(85,000).
   d. Leaking Underground Storage Tank Trust Fund for $(5,315,000).
   e. Oil Spill Liability Trust Fund for $243,000.

   Recommendations
   We recommend that TFMB:
   a. Record tax receivables/payables for tax adjustments received prior to the issuance of the Schedules,
      unless the tax adjustment is clearly inconsequential.
   b. Develop and implement policies requiring management to review and approve tax adjustments that are
      not included in the Schedules because the tax adjustments are clearly inconsequential and requiring
      management to document such review and approval.
   c. Communicate unrecorded tax adjustments to the program agencies responsible for the respective trust
      fund activity.

   Management’s Response
   TFMB concurs with the recommendations. Although financial reporting of tax adjustments in accordance
   with the aforementioned standard is the responsibility of program agencies, it is TFMB’s goal to assist in the
   fulfillment of this responsibility by providing information pertaining to tax adjustments received.
    Accordingly, TFMB will work to strengthen practices surrounding the processing, management review, and
   communication of unrecorded tax adjustments to the program agencies.

We did not examine TFMB’s response and, accordingly, we express no opinion on it.




                                                      4
This report is intended solely for the information and use of the management of BPD, program agencies
responsible for their respective trust fund activity, the U.S. Department of the Treasury Office of Inspector
General, the Office of Management and Budget, the Government Accountability Office, and the U. S. Congress,
and is not intended to be and should not be used by anyone other than these specified parties.




November 6, 2008




                                                     5
II. SCHEDULE OF ASSETS AND LIABILITIES OF
           SELECTED TRUST FUNDS
                                               U.S. DEPARTMENT OF THE TREASURY
                                   BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                                              Schedule of Assets and Liabilities of Selected Trust Funds
                                                              As of September 30, 2008


                                           Federal
                                        Supplementary            Federal                                                   Hazardous
                                           Medical               Hospital                                    Airport       Substance
                                          Insurance             Insurance                 Highway          and Airway      Superfund
                                         Trust Fund             Trust Fund               Trust Fund        Trust Fund      Trust Fund
Assets:
  Fund balance with Treasury        $       85,145,086             6,736,926           2,268,114,482         848,372,546       2,893,636
  Interest receivables                     671,328,260         3,962,998,925                      —           72,837,779      11,533,340
  Other receivables                            275,000           510,050,000                      —                   —               —
  Investments, net                      59,089,947,000       318,740,983,000          12,811,128,000       7,673,709,000   2,914,699,552
       Total assets                     59,846,695,346       323,220,768,851          15,079,242,482       8,594,919,325   2,929,126,528
Liabilities:
  Program agency equity:
     Available                          25,942,764,182        22,268,323,437          15,079,242,482       3,772,307,386   2,749,820,725
     Other                              33,903,931,164       300,952,445,414                      —        4,822,611,939     179,305,803
     Total program agency equity        59,846,695,346       323,220,768,851          15,079,242,482       8,594,919,325   2,929,126,528
       Total liabilities            $   59,846,695,346       323,220,768,851          15,079,242,482       8,594,919,325   2,929,126,528




                                                                          7                                                     (Continued)
                                            U.S. DEPARTMENT OF THE TREASURY
                                BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                                             Schedule of Assets and Liabilities of Selected Trust Funds
                                                             As of September 30, 2008

                                                                                                                         South Dakota
                                           Leaking                                                                        Terrestrial
                                        Underground                 Oil Spill          Harbor               Inland      Wildlife Habitat
                                        Storage Tank                Liability         Maintenance         Waterways       Restoration
                                         Trust Fund                Trust Fund         Trust Fund          Trust Fund      Trust Fund
Assets:
  Fund balance with Treasury        $       (2,497,000)           20,495,522              104,151,618       6,919,000               —
  Interest receivables                      28,735,169             6,510,885               24,410,971              —           808,692
  Other receivables                                 —                     —                        —               —                —
  Investments, net                       3,211,939,026         1,155,022,130            4,523,017,063     123,874,614      117,492,843
        Total assets                     3,238,177,195         1,182,028,537            4,651,579,652     130,793,614      118,301,535


Liabilities:
  Program agency equity:
     Available                             112,068,189           139,842,440                       —      102,919,666               —
     Other                               3,126,109,006         1,042,186,097            4,651,579,652      27,873,948      118,301,535
     Total program agency equity         3,238,177,195         1,182,028,537            4,651,579,652     130,793,614      118,301,535
        Total liabilities           $    3,238,177,195         1,182,028,537            4,651,579,652     130,793,614      118,301,535


See accompanying notes to the schedules of selected trust funds.




                                                                            8
III. SCHEDULE OF ACTIVITY OF
      SELECTED TRUST FUNDS
                                                   U.S. DEPARTMENT OF THE TREASURY
                                       BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                                                      Schedule of Activity of Selected Trust Funds
                                                        For the Year Ended September 30, 2008


                                                  Federal
                                               Supplementary             Federal                                                Hazardous
                                                  Medical                Hospital                                Airport        Substance
                                                 Insurance              Insurance              Highway         and Airway       Superfund
                                                Trust Fund             Trust Fund             Trust Fund       Trust Fund       Trust Fund
Revenues:
  Interest revenue                         $     2,529,158,500        16,605,346,366             2,628,383      429,654,052      114,340,053
  Penalties, fines, and
     administrative fees                                    —            576,316,977            17,988,767                —        2,849,714
  Transfers in from program agencies           181,249,567,452        12,250,278,860         8,035,257,986                —      984,973,681
  Tax revenues and adjustments                              —        197,195,340,431        37,423,056,000    12,048,192,000              —
  Tax refunds                                               —                     —         (1,056,512,000)      (55,957,000)             —
  Premiums                                      58,307,758,295         3,000,012,525                    —                 —               —
  Cost recoveries                                           —                     —                     —                 —       89,975,651
  Other income                                       8,538,888             1,864,628                    —                 —               —
             Total revenues                    242,095,023,135       229,629,159,787        44,422,419,136    12,421,889,052    1,192,139,099
Disposition of revenues:
  Transfers to program agencies                230,605,056,445       221,718,107,036        44,094,505,143    12,549,321,945    1,016,401,019
  Reimbursements to Treasury bureaus
     and the General Fund                             242,440            166,033,244                   —                 —                —
             Total disposition of
               revenues                        230,605,298,885       221,884,140,280        44,094,505,143    12,549,321,945    1,016,401,019
             Net increase/(decrease)
               in program agency
               equity                      $    11,489,724,250         7,745,019,507           327,913,993     (127,432,893)     175,738,080




                                                                           10                                                         (Continued)
                                                 U.S. DEPARTMENT OF THE TREASURY
                                     BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                                                         Schedule of Activity of Selected Trust Funds
                                                           For the Year Ended September 30, 2008


                                                                                                                                 South Dakota
                                                       Leaking                                                                    Terrestrial
                                                    Underground             Oil Spill             Harbor           Inland       Wildlife Habitat
                                                    Storage Tank            Liability            Maintenance     Waterways        Restoration
                                                     Trust Fund            Trust Fund            Trust Fund      Trust Fund       Trust Fund
Revenues:
  Interest revenue                              $     127,345,581            33,037,889            159,193,154     4,772,325         4,808,996
  Penalties, fines, and
     administrative fees                                       —             21,928,970                     —             —                 —
  Transfers in from program agencies                           —                     —                      —             —                 —
  Tax revenues and adjustments                        170,762,000           333,259,522          1,467,233,001    87,598,000                —
  Tax refunds                                                  —                     —                      —             —                 —
  Premiums                                                     —                     —                      —             —                 —
  Cost recoveries                                              —              7,923,189                     —             —                 —
  Other income                                                 —                     —                      —             —         10,000,000
              Total revenues                          298,107,581           396,149,570          1,626,426,155    92,370,325        14,808,996
Disposition of revenues:
  Transfers to program agencies                         74,000,000          156,800,842            786,485,000   170,959,713               —
  Reimbursements to Treasury bureaus
     and the General Fund                                          —               20,600                  —             —                 —
              Total disposition of
                revenues                                74,000,000          156,821,442            786,485,000   170,959,713               —
              Net increase/(decrease)
                in program agency
                equity                          $     224,107,581           239,328,128            839,941,155   (78,589,388)       14,808,996


See accompanying notes to the schedules of selected trust funds.




                                                                              11
IV. NOTES TO THE SCHEDULES OF
      SELECTED TRUST FUNDS
                         U.S. DEPARTMENT OF THE TREASURY
             BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                                   Notes to the Schedules of Selected Trust Funds
                                                September 30, 2008



(1)   Summary of Significant Accounting Policies
      (a)   Reporting Entity
            The accompanying Schedule of Assets and Liabilities of Selected Trust Funds and related Schedule
            of Activity of Selected Trust Funds (Schedules) pertain to the aspects of certain Treasury-managed
            Trust Funds that are serviced by the Trust Fund Management Branch (TFMB) of the Bureau of the
            Public Debt (BPD) of the U.S. Department of the Treasury (Treasury). The Trust Funds were created
            by legislation enacted by the U.S. Congress.

            TFMB acts as a service organization which processes receipts, disbursements, and transfers related
            to the trust funds based upon information received and recorded by TFMB from the Internal Revenue
            Service (IRS) and the Office of Tax Analysis (OTA), U.S Customs and Border Protection, the
            program agencies responsible for their trust fund activity, Treasury’s Financial Management Service
            (FMS), and other Treasury bureaus. As part of its functions, BPD also manages the investments,
            maintains related accounting records and supporting documentation, and reports financial activity.
            The financial activity reported in these Schedules is limited to the activities performed by TFMB.

            The program agencies are responsible for administering, regulating, and monitoring the program
            activities funded by the trust funds. The program agencies make all decisions regarding dispositions
            from the trust funds. As such, these Schedules do not include information regarding the ultimate
            disposition of amounts transferred from the trust funds to the program agencies.

      (b)   Basis of Presentation
            The Schedules have been prepared to report the assets and liabilities of the trust funds under the
            function performed by TFMB, and the related activity, in accordance with the measurement and
            criteria discussed below.

      (c)   Basis of Accounting
            The Schedules are recorded using the accrual basis of accounting in accordance with U.S generally
            accepted accounting principles.

      (d)   Fund Balance with Treasury
            The Trust Funds do not maintain cash in commercial bank accounts. Treasury processes cash
            receipts and disbursements. Fund Balance with Treasury represents net revenue, disposition of
            revenue, and investment activity. Fund balance with Treasury is reported based on the balance
            reported by Treasury’s Financial Management Service in the Government-wide Accounting and
            Reporting Modernization Project (GWA) Account Statement and reconciling transactions identified
            and recorded by TFMB.

      (e)   Interest Receivables
            Interest receivables are calculated and reported by TFMB based on the investment terms received
            and recorded by TFMB from BPD’s Federal Investments Branch (FIB) in the investment
            confirmations and monthly statements of account.

                                                        13
                   U.S. DEPARTMENT OF THE TREASURY
       BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                           Notes to the Schedules of Selected Trust Funds
                                         September 30, 2008



(f)   Other Receivables
      Other receivables are reported based on amounts received and recorded by TFMB from the program
      agencies responsible for the respective trust fund activity.

(g)   Investments, Net
      Pursuant to authorizing legislation, the Secretary of the Treasury shall invest, at the direction of the
      program agencies, such portion of the trust fund balances as is not, in the judgment of the program
      agencies, necessary to meet current withdrawals. Such investments shall be in non-marketable par
      value or non-marketable market-based securities as authorized by legislation. Par value securities are
      special issue bonds or certificates of indebtedness that bear interest determined by legislation or the
      Treasury. Market-based securities are Treasury securities that are not traded on any securities
      exchange, but mirror the prices of marketable securities with similar terms. Both par value and
      market-based securities are issued and redeemed by FIB.

      TFMB follows Treasury fiscal investment policy guidelines. TFMB determines the term of the
      securities purchased based on direction provided by the program agencies. The securities are
      acquired and held in the name of the Secretary of the Treasury for the trust funds. The interest on and
      proceeds from the sale or redemption of any security held for the trust funds are credited to the
      appropriate trust fund. Investments are selected for liquidation based on the following order: earliest
      maturity date, lowest prevailing interest rate, and first security in first security out.

      Investments, net are calculated and reported at net cost based on the cost and premium/discount
      amounts reported to TFMB in the investment confirmations and monthly statements of account
      received from FIB. The market value of investments is calculated and reported by TFMB using the
      recorded investment cost and the market rates published in the September 30, 2008 Treasury Quote
      file (the last work day of the fiscal year) and unrealized gains and losses are calculated and reported
      by TFMB as the difference between the market value and the investments, net. The investments are
      exposed to various risks such as interest rate and market risks. Such risks, and the resulting
      investment market values, may be influenced by changes in economic conditions and market
      perceptions and expectations. Accordingly, it is at least reasonably possible that material changes to
      the market values of the investments will occur in the near term.

(h)   Available and Other Program Agency Equity
      Program agency equity is calculated and reported by TFMB based on the assets of the trust fund.
      Program agency equity consists of available and other program agency equity.

      Available program agency equity represents the amount of program agency equity that may be
      transferred as of September 30, 2008 to the program agencies at the request of the program agencies.
      Available program agency equity is reported based on amounts received and recorded by TFMB
      from the program agencies responsible for the respective trust fund activity.

      The remaining balance of program agency equity is reported as other program agency equity. Other
      program agency equity is calculated and reported by TFMB as the difference between the assets of


                                                  14
                   U.S. DEPARTMENT OF THE TREASURY
       BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                           Notes to the Schedules of Selected Trust Funds
                                          September 30, 2008



      the trust fund and the available program agency equity received and recorded by TFMB from the
      program agencies responsible for the respective trust fund activity.

(i)   Interest Revenue
      Interest revenue is reported based on the amounts received and recorded by TFMB from FIB in the
      monthly statements of account and accrued interest and amortization calculated by TFMB.
      Amortization of any premiums and discounts on investments is calculated and reported by TFMB
      based on the investment terms reported to TFMB by FIB using the straight-line method for
      investments with a term equal to or less than one year and using the level yield method which
      approximates the interest method for investments with a term of greater than one year.

(j)   Revenues
      Pursuant to authorizing legislation, revenue activity recorded in the trust funds consists primarily of
      interest, penalties, fines, administrative fees, transfers in from program agencies, tax revenues, tax
      adjustments, tax refunds, premiums, cost recoveries, and other income, which are transferred from
      the General Fund of the Treasury or from program agencies to the Trust Funds.

      Penalties, fines, administrative fees, transfers in from program agencies, premiums, cost recoveries,
      and other income are reported based on the amounts received and recorded by TFMB from FMS and
      the program agencies responsible for the respective trust fund activity.

      Tax revenues, tax adjustments, and tax refunds are reported based on the amounts received and
      recorded by TFMB from the OTA, IRS, FMS, and/or U.S. Customs and Border Protection. OTA
      estimates the tax revenues each month based on projected tax receipts and provides the estimates to
      FMS. FMS transfers the amount of estimated taxes to the trust fund accounts. The IRS or program
      agencies generally certify the tax revenues within two quarters after the taxes are estimated (i.e., 1st
      quarter estimate is certified in the 3rd quarter) and provide this certification to FMS. FMS calculates
      the tax adjustment as the difference between the taxes estimated by OTA and taxes certified by the
      IRS/program agencies and adjusts the trust fund accounts accordingly. FMS reports the tax
      adjustments to TFMB. As a result of the timing of the certifications, the Schedule of Activity
      includes certified tax revenues (i.e. actual tax revenues) for the first three quarters of the fiscal year
      and estimated tax revenues for the last quarter of the fiscal year.

(k)   Transfers to Program Agencies
      Dispositions from the Trust Funds are made in accordance with the authorizing legislation to the
      program agencies, which are responsible for the ultimate disposition of such funds, to cover program
      administration and related costs as defined by law. Transfers to program agencies are calculated and
      reported based on the disbursement request amounts received and recorded by TFMB from the
      program agencies responsible for the respective trust fund activity and the disbursement amounts
      returned and recorded by TFMB from the program agencies responsible for the respective trust fund
      activity.




                                                   15
                         U.S. DEPARTMENT OF THE TREASURY
             BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                                Notes to the Schedules of Selected Trust Funds
                                              September 30, 2008



      (l)   Reimbursements to Treasury Bureaus and the General Fund
            In the case of certain trust funds, BPD and FMS are authorized by law to receive direct
            reimbursement from the trust funds for certain administrative expenses. Also, the Secretary of the
            Treasury is directed by law to charge trust funds to reimburse the General Fund for administrative
            expenses incurred by other Treasury bureaus in performing activities related to administering the
            trust funds. These reimbursement amounts are determined by Treasury based on its assessment of the
            value of the services provided. Reimbursements to Treasury bureaus and the General Fund are
            reported based on the disbursement request amounts received and recorded by TFMB from various
            Treasury bureaus, including BPD and FMS.

(2)   Investments, Net
      Federal Supplementary Medical Insurance Trust Fund
      Investments at September 30, 2008, are non-marketable, par value intra governmental securities with a cost
      of $59,089,947,000.

      Federal Hospital Insurance Trust Fund
      Investments at September 30, 2008, are non-marketable, par value intra governmental securities with a cost
      of $318,740,983,000.

      Highway Trust Fund
      Investments at September 30, 2008, are non-marketable, par value intra governmental securities with a cost
      of $12,811,128,000. In accordance with Public Law 105-277, 112 Statute 2681, investments held by the
      Trust Fund ceased earning interest after September 30, 1998. However, the fund can earn interest pursuant
      to the Cash Management Improvement Act.

      Airport and Airway Trust Fund
      Investments at September 30, 2008, are non-marketable, par value intra governmental securities with a cost
      of $7,673,709,000.




                                                      16
                   U.S. DEPARTMENT OF THE TREASURY
       BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                          Notes to the Schedules of Selected Trust Funds
                                       September 30, 2008



Hazardous Substance Superfund Trust Fund
Investments at September 30, 2008, are non-marketable, market-based intra governmental securities as
follows:
                                                           Net
                                                      unamortized
                                                        premium             Net            Market
                                         Cost          (discount)       investments         value
One-day certificates             $      252,821,130        N/A           252,821,130      252,821,130
Notes                                 2,631,356,144      30,522,278    2,661,878,422    2,669,274,701
             Total               $   2,884,177,274       30,522,278    2,914,699,552    2,922,095,831


The net unrealized gain on investments is $7,396,279 at September 30, 2008.

Leaking Underground Storage Tank Trust Fund
The investments at September 30, 2008, are non-marketable, market-based intra governmental securities as
follows:
                                                           Net
                                                      unamortized
                                                        premium            Net             Market
                                        Cost           (discount)      investments          value
One-day certificates            $      157,333,419        N/A            157,333,419       157,333,419
Notes                                3,007,826,212      46,779,395     3,054,605,607     3,184,132,259
             Total              $    3,165,159,631      46,779,395     3,211,939,026     3,341,465,678



The net unrealized gain on investments is $129,526,652 at September 30, 2008.




                                                17
                   U.S. DEPARTMENT OF THE TREASURY
       BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                          Notes to the Schedules of Selected Trust Funds
                                         September 30, 2008



Oil Spill Liability Trust Fund
The investments at September 30, 2008, are non-marketable, market-based intra governmental securities as
follows:
                                                           Net
                                                      unamortized
                                                        premium          Net              Market
                                         Cost          (discount)    investments           value
One-day certificates             $     251,666,887        N/A          251,666,887       251,666,887
Bills and notes                        872,727,451      30,627,792     903,355,243       918,522,850
             Total               $ 1,124,394,338        30,627,792   1,155,022,130      1,170,189,737


The net unrealized gain on investments is $15,167,607 at September 30, 2008.

Harbor Maintenance Trust Fund

The investments at September 30, 2008, are non-marketable, market-based intra governmental securities as
follows:
                                                           Net
                                                      unamortized
                                                        premium          Net             Market
                                        Cost           (discount)    investments         value
One-day certificates             $     446,206,831       N/A           446,206,831      446,206,831
Bills and notes                      4,050,697,808     26,112,424    4,076,810,232    4,217,416,915
             Total               $ 4,496,904,639       26,112,424    4,523,017,063    4,663,623,746


The net unrealized gain on investments is $140,606,683 at September 30, 2008.




                                                 18
                         U.S. DEPARTMENT OF THE TREASURY
             BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                                 Notes to the Schedules of Selected Trust Funds
                                              September 30, 2008



      Inland Waterways Trust Fund

      The investments at September 30, 2008, are non-marketable, market-based intra governmental securities as
      follows:
                                                                     Net
                                                                unamortized
                                                                  premium             Net          Market
                                                    Cost         (discount)       investments       value
      One-day certificates                   $    61,177,998        N/A              61,177,998    61,177,998
      Bills                                       62,917,000       (220,384)         62,696,616    62,871,560
                   Total                      $ 124,094,998        (220,384)        123,874,614   124,049,558


      The net unrealized gain on investments is $174,944 at September 30, 2008.

      South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund

      The investments at September 30, 2008, are non-marketable, market-based intra governmental securities as
      follows:
                                                                     Net
                                                                unamortized
                                                                  premium             Net          Market
                                                    Cost         (discount)       investments      value
      One-day certificates                    $   18,457,144        N/A              18,457,144    18,457,144
      Notes                                       99,278,224       (242,525)         99,035,699   103,786,686
                   Total                      $ 117,735,368        (242,525)        117,492,843   122,243,830


      The net unrealized gain on investments is $4,750,987 at September 30, 2008.

(3)   Change in Program Agency Equity
      Federal Supplementary Medical Insurance Trust Fund
      Change in program agency equity for the year ended September 30, 2008, is:
                           Balance, beginning of year                  $    48,356,971,096
                           Increase in balance                              11,489,724,250
                           Balance, end of year                        $    59,846,695,346




                                                        19
                   U.S. DEPARTMENT OF THE TREASURY
       BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                          Notes to the Schedules of Selected Trust Funds
                                       September 30, 2008



Federal Hospital Insurance Trust Fund
Change in the program agency equity for the year ended September 30, 2008, is:
                   Balance, beginning of year                   $ 315,475,749,344
                   Increase in balance                              7,745,019,507
                   Balance, end of year                         $ 323,220,768,851


Highway Trust Fund
Change in program agency equity for the year ended September 30, 2008, is:
                   Balance, beginning of year                   $    14,751,328,489
                   Increase in balance                                  327,913,993
                   Balance, end of year                         $    15,079,242,482


The program agency equity available as of September 30, 2008 is $15,079,242,482. However, Congress
has authorized appropriations in excess of current available trust fund assets that amounts to
$9,266,866,042 after considering amounts already transferred to the program agency.

Airport and Airway Trust Fund

Change in program agency equity for the year ended September 30, 2008, is:
                   Balance, beginning of year                   $     8,722,352,218
                   Decrease in balance                                (127,432,893)
                   Balance, end of year                         $     8,594,919,325


Hazardous Substance Superfund Trust Fund
Change in program agency equity for the year ended September 30, 2008, is:
                   Balance, beginning of year                   $     2,753,388,448
                   Increase in balance                                  175,738,080
                   Balance, end of year                         $     2,929,126,528




                                                20
                   U.S. DEPARTMENT OF THE TREASURY
       BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                          Notes to the Schedules of Selected Trust Funds
                                       September 30, 2008



Leaking Underground Storage Tank Trust Fund
Change in program agency equity for the year ended September 30, 2008, is:
                    Balance, beginning of year                  $     3,014,069,614
                    Increase in balance                                 224,107,581
                    Balance, end of year                        $     3,238,177,195


Oil Spill Liability Trust Fund
Change in program agency equity for the year ended September 30, 2008, is:
                    Balance, beginning of year                  $          942,700,409
                    Increase in balance                                    239,328,128
                    Balance, end of year                        $     1,182,028,537


Harbor Maintenance Trust Fund
Change in program agency equity for the year ended September 30, 2008, is:
                    Balance, beginning of year                  $     3,811,638,497
                    Increase in balance                                 839,941,155
                    Balance, end of year                        $     4,651,579,652


Inland Waterways Trust Fund
Change in program agency equity for the year ended September 30, 2008, is:
                   Balance, beginning of year                   $      209,383,002
                   Decrease in balance                                 (78,589,388)
                   Balance, end of year                         $          130,793,614




                                                 21
                          U.S. DEPARTMENT OF THE TREASURY
              BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                                 Notes to the Schedules of Selected Trust Funds
                                               September 30, 2008



      South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund
      Change in program agency equity for the year ended September 30, 2008, is:
                          Balance, beginning of year                      $       103,492,539
                          Increase in balance                                      14,808,996
                          Balance, end of year                            $       118,301,535


      The Omnibus Consolidated and Emergency Supplemental Appropriations Act dated October 21, 1998
      (Public Law 105-277, DIVISION C, Title VI, Section 603) established this trust fund in 1999. This Act
      states that the Secretary of the Treasury may not transfer or withdraw any amount deposited in the trust
      fund until after the fund has been fully capitalized with at least $108,000,000 in transfers from the general
      fund of the Treasury. As such, the program agency equity balance as of September 30, 2008 is not
      available to the program agency.

(4)   Other Income
      South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund
      The $10,000,000 of other income for the year ended September 30, 2008 represents the amounts deposited
      into the trust fund by the Secretary of the Treasury in accordance with the trust fund’s enabling legislation
      (Public Law 105-277, DIVISION C, Title VI, Section 603).

(5)   Related Parties
      TFMB, on behalf of the Secretary of the Treasury, compiles amounts deposited into the trust funds, invests
      receipts in Treasury securities, redeems securities and transfers funds to the program agencies, maintains
      accounting records for receipts and disbursements of the trust funds, and reports trust fund financial
      activity to the program agencies and other interested parties. The program agencies, OTA, IRS, and/or
      FMS determine the amounts to be deposited in the trust funds. The program agencies determine the
      disposition of the trust fund balances.




                                                        22
